BECKER GALLAG HER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 19-1280
THE IDAHO DEPARTMENT OF CORRECTION, et al.,

Petitioners,
V.

ADREEEDMO ,

Respondent.
As required by Supreme Court Rule 33. l(h), I
certify that the Reply Brief for Petitioners contains
2,642 words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on August 24, 2020.

DonnaJ. Wo
Becker Gallagher Legal Pu lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

I BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

